                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM



Y    Case Number: A08060034
                                                                                    I          Page 1 of 1



              Three NSF POS' brought an allegation of possible plagiarism involving two proposals2received
              almost simultaneously. Although the POs believed that plagiarism was possible, they suspected
              that a third author was involved in writing the similar text.

              We wrote to both PIS and asked about the similar language. Both PIS responded that a
              professional grant write? helped write the proposaIs a d she was responsible for the common
              text. We determined that the grant writer's actions did not rise to the level of research
              misconduct, however, we wrote and informed her of the consequences ofher actions and suggest
              she be more careful in the future.

              This case is closed and no W e r action will be taken.




    ?.
     NSF OIG F a m 2 (1 1/02)
